           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
   THE NORTH CAROLINA DISABILITY
      DETERMINATION SERVICES


      May 2012    A-04-11-01115




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      May 14, 2012                                                          Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:    Administrative Costs Claimed by the North Carolina Disability Determination Services
           (A-04-11-01115)


           OBJECTIVE
           For our audit of Federal Fiscal Year (FY) 2009 and 2010 administrative costs claimed
           by the North Carolina Disability Determination Services (NC-DDS), our objectives were
           to

           •   evaluate the NC-DDS’ internal controls over the accounting and reporting of
               administrative costs;
           •   determine whether the costs claimed by the NC-DDS were allowable and funds were
               properly drawn; and
           •   assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs according to Federal
           law and regulations. 1 Each DDS is responsible for determining claimants’ disabilities
           and ensuring adequate evidence is available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, x rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources.



           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et. seq., and
           416.1001, et. seq.
Page 2 – Michael Grochowski


SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization for costs reported on a State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513).

The NC-DDS, located in Raleigh, North Carolina, is a component of the North Carolina
Division of Vocational Rehabilitation in the North Carolina Department of Health and
Human Services (NC-DHHS). NC-DHHS’ Controller’s Office accounts for NC-DDS’
disbursements, completes the Form SSA-4513, and prepares requests to transfer cash
from the Department of the Treasury to the State Treasurer. In FYs 2009 and 2010,
NC-DDS claimed costs of about $55 and $60 million, respectively. For additional
background and our audit scope and methodology, see Appendix B.

RESULTS OF REVIEW
Except for the items discussed in the following sections, we determined that costs
NC-DDS claimed for the period October 1, 2008 through September 30, 2010 were
allowable and properly allocated, and the system of internal controls over the
accounting and reporting of administrative costs was effective. In addition, cumulative
draw downs did not exceed cumulative disbursements during our audit period. Finally,
our limited review of NC-DDS’ controls over its physical security and personally
identifiable information showed that controls were generally in place. (See Appendix C
for costs reported on Forms SSA-4513.)

OVERSTATED FUND OBLIGATIONS

NC-DDS overstated its FY 2009 obligated funds by $1,043,063. NC-DDS reported
$1,275,255 of unliquidated funds in the occupancy cost category on its FY 2009
Form SSA-4513 for the period ended March 31, 2011. 2 At that time, NC-DDS was
expecting to use the obligated funds to complete an office expansion project that began
in FY 2010 (SSA authorized FY 2009 funds to pay for the project). However, we found
NC-DDS had paid most of the costs for the expansion project before March 31, 2011. 3

SSA’s Program Operations Manual System (POMS) requires that States review the
status of unliquidated obligations at least once a month and cancel funds it no longer
needs. 4 After we discussed this issue with NC-DDS officials, they reviewed the
unliquidated fund balance and determined the DDS had overestimated costs required to


2
  A DDS’ financial reporting period may extend beyond the fourth quarter of a particular FY. Specifically,
a DDS’ FY reporting period remains open until all the FY fund obligations are liquidated or until the end of
the fifth FY after the year for which SSA obligated funds. When a DDS’ financial reporting period extends
beyond the fourth quarter of a FY, the DDS must continue reporting quarterly to SSA (on the Form SSA-
4513) its cumulative costs, including adjustments to previously reported costs. POMS, DI 39506.201.A.
and DI 39506.203.B. (Effective dates: March 12, 2002 - Present)
3
    NC-DDS moved into the new space in May 2011.
4
    POMS, DI 39506.203(A). (Effective dates: March 12, 2002 – Present.)
Page 3 – Michael Grochowski


complete the expansion project. As such, NC-DDS did not need $1,043,063 of the
unliquidated funds. SSA officials informed us they would instruct NC-DDS to cancel
these funds from NC-DDS’ FY 2009 operating funds account.

EXCESS OFFICE SPACE

As of November 2011, NC-DDS had excess office space. Specifically, NC-DDS had
unused space that could accommodate 122 additional staff. The cost of the excess
space was about $249,000, annually. SSA will incur over $1.9 million between
December 1, 2011 and July 31, 2019 (the lease expiration date) for this unused space
unless the Agency and NC-DDS take corrective steps.

In July 2009, NC-DDS requested SSA’s approval to “build out” additional space at its
office location to provide space for 140 additional new staff. SSA approved the project
in September 2009. The project included a 16,800-square-foot expansion that cost
about $1.9 million (including costs for furniture, equipment, and data wiring). The
expansion added space for 114 staff; increasing the office capacity from 632 to
746 staff. Rent for the additional space was about $20,711 a month or $248,535 a year
(totals rounded).

In November 2010, about 2 weeks after the State of North Carolina amended 5 NC-DDS’
office lease to add the additional space, SSA issued a national hiring freeze for DDS
employees. At that time, NC-DDS had 675 permanent 6 staff. When NC-DDS moved
into the new office space in May 2011, its permanent staff had decreased to 655.
Because of attrition and SSA’s hiring freeze, by the end November 2011, NC-DDS’ staff
had further decreased to 624, leaving NC-DDS with excess office space for 122 staff.
In fact, the number of staff was eight less than the office capacity before the office
expansion. See Table 1 for a comparison of the number of permanent staff to the office
capacity for various months from July 2009 through November 2011.

              Table 1: Comparison of Number of Staff to Office Capacity
                            Number of      Office Capacity      Number of Staff
        Month and Year    Full-Time Staff (Number of Staff) to Office Capacity
           July 2009            553              632                79 less
        September 2009          575              632                57 less
        November 2010           675              632               43 more
          May 2011              655              746                91 less
        November 2011           624              746               122 less




5
 The State amended the lease on November 2, 2010. The amendment also extended the lease until
July 31, 2019.
6
    During FYs 2010 and 2011, NC-DDS also used about 21 part-time, temporary employees per month.
Page 4 – Michael Grochowski


If SSA’s DDS hiring freeze continues, NC-DDS will pay about $249,000 annually for
excess office space—or approximately $1.9 million from December 1, 2011 through the
end of the lease on July 13, 2019. Given the current and anticipated Federal budget
limitations, we believe SSA needs to determine how many new hires it expects to fund
at the NC-DDS over the next several years. If the expected number of new hires will
not increase to a level that justifies the additional office space, SSA should evaluate
options to modify the lease and mitigate the continuing costs of this excess space.

OVERSTATED COSTS CHARGED TO SSA

NC-DDS claimed overstated charges totaling $7,692 on Forms SSA-4513: $5,350 in
FY 2009 and $2,342 in FY 2010. NC-DDS claimed the costs for both FYs in the All
Other Non-personnel cost category. NC-DDS received credits on its telephone and
motor fleet costs, which it did not reflect in its Forms SSA-4513.

NC-DHHS’ Controller’s Office was aware of the credits and did not draw cash for these
expenses. However, the Controller’s office did not deduct the credits from costs
reflected on its Forms SSA-4513. If these Forms are not corrected, SSA could
reimburse the charges when NC-DDS closes its 2009 and 2010 FYs. SSA should
instruct NC-DDS to revise the costs claimed on the Forms SSA-4513 to account for
these credits.

GENERAL SECURITY CONTROLS

NC-DDS did not have annual professional tests of the building’s fire alarm and sprinkler
systems. 7 The fire alarm system was last tested in February 2010, and the sprinkler
system was last tested in September 2009. We believe NC-DDS should have the fire
alarm and sprinkler systems professionally tested annually to ensure they are operating
properly.

Additionally, we found water pipes above the NC-DDS’ computer room. The computer
room did not have an environmental control system to detect water leaks, as required
by SSA POMS. To prevent damage to the computer system and possible loss of data,
we believe NC-DDS should install a water (leakage) alarm system along the pipes or
take other measures to mitigate the risk of water leaking from the pipes.




7
 The Government Accountability Office’s Federal Information System Controls Audit Manual (Chapter 3,
Appendix III, SC-2.2) suggests that fire prevention and detection systems be tested periodically to ensure
proper operation.
Page 5 – Michael Grochowski


CONCLUSION AND RECOMMENDATIONS
Overall, for FYs 2009 and 2010, NC-DDS had adequate internal controls over the
accounting and reporting of administrative costs, which generally ensured it claimed
allowable costs and accurately allocated and drew down funds. In addition, NC-DDS
generally had adequate controls to protect claimant data and ensure the ongoing
security of personnel and property.

However, we found NC-DDS no longer needed $1,043,063 of unliquidated obligations;
had excess office space costing about $249,000 annually; and claimed overstated
charges totaling $7,692 on Forms SSA-4513. Additionally, NC-DDS did not have the
fire alarm and sprinkler systems professionally tested annually and did not have a water
(leakage) alarm system for the water pipes located above the computer room.

Accordingly, we recommend SSA:

1. Instruct NC-DDS to deobligate $1,043,063 of unliquidated obligations for occupancy
   costs from its FY 2009 operating fund account.

2. Determine how many new hires it expects to fund at the NC-DDS over the next
   several years. If the expected number of new hires will not increase to a level
   justifying the additional office space, SSA should evaluate options to modify the
   lease and mitigate the continuing costs of this excess space.

3. Instruct NC-DDS to revise costs claimed on the Forms SSA-4513 to account for the
   State credits; $5,350 in FY 2009 and $2,342 in FY 2010.

4. Instruct NC-DDS to have the fire alarm and sprinkler systems professionally tested
   annually.

5. Instruct NC-DDS to install a water (leakage) alarm system along the pipes or take
   other measures to mitigate the risk of water leaking from the pipes and damaging
   the computer system.

AGENCY COMMENTS
SSA and NC-DHHS’ responses indicated they agreed with our recommendations. See
Appendices D and E, respectively, for the full text of the comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope, and Methodology
APPENDIX C – Schedule of Total Costs Reported on the Forms SSA-4513 - State
             Agency Report of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – North Carolina Department of Health and Human Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
NC-DDS        North Carolina Disability Determination Services
NC-DHHS       North Carolina Department of Health and Human Services
OIG           Office of the Inspector General
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code


Form
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
                                                                                Appendix B

Background, Scope, and Methodology
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determination services (DDS) in each State, Puerto Rico, Guam, the U.S. Virgin Islands,
and the District of Columbia, perform disability determinations under both the DI and
SSI programs. Such determinations are required to be performed in accordance with
Federal law and underlying regulation. 1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, SSA authorizes each DDS to purchase medical examinations, x rays,
and laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 3 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs
(Form SSA-4513) to account for program disbursements and unliquidated obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs North Carolina
Disability Determination Services (NC-DDS) reported on its Forms SSA-4513 for
FYs 2009 and 2010. For the periods reviewed, we obtained evidence to evaluate


1
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et. seq. and
416.1001 et. seq.
2
    31 C.F.R. Part 205.
3
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).


                                                  B-1
recorded financial transactions and determine whether they were allowable under
OMB Circular A-87 and appropriate, as defined by SSA’s Program Operations Manual
System.

•   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s
    Program Operations Manual System and other instructions pertaining to
    administrative costs claimed by NC-DDS and draw down of the SSA funds.
•   Interviewed staff at NC-DDS, the Controller’s Office, the North Carolina Department
    of Health and Human Services, and SSA’s Atlanta Regional Office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of State accounting records to the administrative costs
    reported by NC-DDS on Forms SSA-4513 for FYs 2009 and 2010.
•   Examined the administrative expenditures (Personnel, Medical, and All Other
    Non-personnel costs) incurred and claimed by NC-DDS for FYs 2009 and 2010 on
    Forms SSA-4513.
•   Examined the indirect costs NC-DDS claimed for FYs 2009 and 2010 and the
    corresponding Cost Allocation Plans.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Determined whether NC-DDS excluded the cost of non-SSA work from the costs it
    claimed on Forms SSA-4513 for FYs 2009 and 2010.
•   Conducted limited general control testing—which encompassed reviewing the
    physical access security in the NC-DDS.

•   Reviewed policies and procedures related to personally identifiable information to
    determine whether the NC-DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at NC-DDS in Raleigh, North Carolina, and the Office of Audit
in Atlanta, Georgia, from March through December 2011. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.



                                            B-2
METHODOLOGY

Our sampling methodology encompassed the four general areas of costs as reported on
Forms SSA-4513: (1) Personnel, (2) Medical, (3) Indirect Costs, and (4) All Other
Non-personnel costs. We obtained computerized cost data from NC-DDS for FYs 2009
and 2010. We used the computerized data to select a statistical sample for our control
tests.

Personnel Costs

For our control tests, we sampled 50 employee salary items from 1 randomly selected
pay period in FY 2010. We tested regular and overtime payroll and hours for each
individual selected. We verified that approved time records were maintained and
supported the hours worked. Our control tests determined whether NC-DDS charged
SSA correct payroll costs.

Medical Costs

For our control tests, we sampled 100 medical evidence of record and consultative
examination (50 items from each FY) using a proportional random sample. Our control
tests determined whether NC-DDS charged SSA correct medical costs.

Indirect Costs

For our control tests, we reviewed indirect costs for 1 month in both FYs 2009 and
2010. We tested selected indirect cost pools included in the cost allocation plan. Our
control tests determined whether NC-DDS allocated the indirect cost pools in
accordance with the cost allocation plans.

All Other Non-Personnel Costs

We stratified All Other Non-personnel costs into eight categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases and Rental,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and
(8) Miscellaneous. For our control tests, we selected a stratified random sample of
50 items from each FY based on the percentage of costs in each category (excluding
the rent portion of Occupancy costs). For Occupancy costs, we tested 100 percent of
the rent portion of the costs charged in both FYs 2009 and 2010, and for FY 2009 we
tested five charges for office furniture. Our control tests determined whether NC-DDS
correctly charged SSA for All Other Non-personnel costs.




                                           B-3
General Security Controls

We conducted limited general security control testing. Specifically, we reviewed the
following eight areas relating to general security controls: (1) Perimeter Security,
(2) Internal Security, (3) Physical Access Controls, (4) Visitor Access Guidelines,
(5) Office Safety, (6) Personally Identifiable Information, (7) Security Plan, and (8) Other
Security Controls. We determined whether the general security controls the NC-DDS
had in place were satisfactory.




                                             B-4
                                                             Appendix C

Schedule of Total Costs Reported on the
Forms SSA-4513 - State Agency Report of
Obligations for SSA Disability Programs
            North Carolina Disability Determination Services
                 FISCAL YEARS (FY) 2009 and 2010 COMBINED
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $60,448,197             -0-     $60,448,197
Medical                        $37,607,337     $2,090,731      $39,698,068
Indirect                        $4,138,969             -0-      $4,138,969
All Other                       $8,834,342     $1,447,451      $10,281,793
                   TOTALS     $111,028,845     $3,538,182     $114,567,027
                                    FY 2009
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $28,330,071             -0-     $28,330,071
Medical                        $17,584,572       $804,047      $18,388,619
Indirect                        $2,081,776             -0-      $2,081,776
All Other                       $4,468,254     $1,404,376       $5,872,630
                   TOTALS      $52,464,673     $2,208,423      $54,673,096
                                    FY 2010
                                              UNLIQUIDATED       TOTAL
      REPORTING ITEMS       DISBURSEMENTS     OBLIGATIONS     OBLIGATIONS
Personnel                      $32,118,126             -0-     $32,118,126
Medical                        $20,022,765     $1,286,684      $21,309,449
Indirect                        $2,057,193             -0-      $2,057,193
All Other                       $4,366,088        $43,075       $4,409,163
                  TOTALS      $58,564,172      $1,329,759      $59,893,931
                  Appendix D

Agency Comments
MEMORANDUM

Date:        March 23, 2012

To:          Inspector General

From:        Regional Commissioner
             Atlanta

Subject: Administrative Costs Claimed by the North Carolina Disability Determination
         Services (A-04-11-01115) – REPLY


Thank you for the opportunity to comment on the Office of the Inspector General final
report “Administrative Costs Claimed by the North Carolina Disability Determination
Services“ (A-04-11-01115).

Our response to the five recommendations is as follows:

1. Instruct NC-DDS to deobligate $1,043,063 of unliquidated obligation for
   occupancy costs from its FY 2009 operation fund account.

      The NC-DDS de-obligated ($1,043,063) of unliquidated obligations for occupancy
      cost from the FY 2009 account in November 2011.

2. Determine how many new hires it expects to fund at the NC-DDS over the next
   several years. If the expected number of new hires will not increase to a level
   justifying the additional office space, SSA should evaluate options to modify
   the lease and mitigate the continuing costs of this excess space.

      As a result of the hiring freeze and ongoing DDS attrition the DDS was unable to
      utilize all the additional cubicle and office space provided in the 18,000 sq. ft.
      addition. The current lease, which includes the 18,000 sq. ft., was signed in
      November 2010 with an expiration date of July 31, 2019. The NC-DDS understands
      that the current square footage under lease has resulted in excess space, but the
      NC-DDS is liable under the conditions of the lease agreement for the term specified
      and still expects and intends to hire to fill all vacant positions once the federal hiring
      freeze is lifted.

3. Instruct NC-DDS to revise costs claimed on the Forms SSA-4513 to account
   for the State credits; $5,350 in FY 2009 and $2,342 in FY 2010.

      The NC-DDS Parent Agency’s Controllers Office is responsible for these forms. The
      NC-DDS has contacted them to make the corrections and will advise when it has
      been completed.


                                                D-1
4. Instruct NC-DDS to have the fire alarm and sprinkler systems professionally
   tested annually.

   The NC-DDS sprinkler system inspection was done on June 1, 2011; however, the
   landlord did not make a copy of this inspection document available to the NC-DDS at
   the time of the OIG Audit. Recent Fire Alarm and Sprinkler Systems inspections
   have been completed. The Fire Alarm System was last inspected February 2012.

5. Instruct NC-DDS to install a water (leakage) alarm system along the pipes or
   take other measures to mitigate the risk of water leaking from the pipes and
   damaging the computer system.

   The NC-DDS is currently exploring options with the Landlord regarding installation of
   Early Warning Water Leak Detection Equipment and Devices products in the ceiling
   tiles of the computer system room. The NC-DDS expects the bid, contract, and
   installation process to be completed by end of calendar year 2012.

We do not have any additional comments to make on this audit and corrective action
has been taken on each item as shown in our response.

Staff questions should be referred to Sarah Henderson in the Atlanta Region’s Center
for Disability at 404-562-1397.


                                   Amy Roberts for
                                Michael W. Grochowski




                                          D-2
                                   Appendix E

North Carolina Department of Health and
Human Services Comments
E-1
E-2
E-3
E-4
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Luis A. Ramírez, Senior Auditor

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-04-11-01115.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
